OIG Investigative Reports, Pittsburgh Beauty Academy President Charged with Failing to Refund Federal Funds
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
FOR IMMEDIATE RELEASE:
Pittsburgh, PA April 6, 2004
U.S. Department of Justice
United States Attorney
Western District of Pennsylvania
700 Grant Street - Suite 400
Pittsburgh, Pennsylvania 15219
(412) 644-3500
PITTSBURGH BEAUTY ACADEMY PRESIDENT CHARGED WITH FAILING TO REFUND FEDERAL FUNDS
United States Attorney Mary Beth Buchanan announced today, April 6, 2004, that Arthur B. DeConcillis, President of the Pittsburgh Beauty Academy, has been indicted by a federal grand jury in Pittsburgh on a charge of failing to refund student financial aid funds.
The one-count indictment named DeConcillis, age 75, who resides at 2836 Knowlson Avenue, Pittsburgh, Pennsylvania 15226.
Ms. Buchanan stated that the indictment presented to the court alleges that DeConcillis has been the President of Pittsburgh Beauty Academy since 1999.  The indictment further alleges that, since 1999, DeConcillis has illegally retained approximately $83,000 in student aid funds which the Academy received from the United States Department of Education.  The indictment charges that DeConcillis should have returned the funds to the Department of Education because the students for whom the funds were provided failed to complete their programs of study at the Academy.
Ms. Buchanan stated, "Federal regulations require a school to refund Department of Education funds within sixty days from the date the student drops out of class.  In the case of approximately 68 Pittsburgh Beauty Academy students who left the school  prematurely, the financial aid provided by the Department was not returned to the government as is required by law."
Assistant United States Attorney Shaun E. Sweeney, who presented the case to the grand jury, indicated that the law provides for a maximum total sentence of five years in prison, a fine of $20,000, or both.  Under the Federal Sentencing Guidelines, the actual sentence imposed would be based upon the seriousness of the offense and the prior criminal history, if any, of the defendant.
Department of Education - Office of Inspector General conducted the investigation leading to the indictment in this case.
An indictment is only a charge and is not evidence of guilt.  A defendant is presumed innocent and is entitled to a fair trial at which the government must prove guilt beyond a reasonable doubt.
Top
Printable view
Share this page
Last Modified: 03/03/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov